Audit of Florida's Medicaid Escheated Warrants for the Period July 1, 1993 Through March 31, 2000, A-04-00-00138
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Florida's Medicaid Escheated Warrants for the Period July 1, 1993 Through March 31, 2000," (A-04-00-00138)
January 25, 2002
Complete
Text of Report is available in PDF format (955 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that for the period July 1, 1993 through March 31, 2000, the State did not adhere to Federal
regulations concerning Medicaid escheated warrants.  Specifically, the State:  (1) could not identify the amount
and timeliness of escheated warrants credited during the period July 1, 1993 through June 30, 1994; (2) did not report
any escheated warrants and as a result, drew down $4.4 million ($2.5 million Federal share) of Medicaid funds in excess
of immediate program needs during the period July 1, 1994 through September 30, 1996; and (3) untimely credited $11.3 million
($6.3 million Federal share) of escheated warrants during the period October 1, 1996 through March 31, 2000.  The
Medicaid funds drawn in excess of immediate program needs were subsequently credited to the Federal Government.  However,
the State earned about $2 million  ($1.1 million Federal share) in interest on the $11.3 million.  Our analysis
showed that the State repaid only $493,922 of the $1.1 million using its methodology for computing interest under the Cash
Management and Improvement Act, leaving $613,891 due the Medicaid program.  Along with procedural recommendations,
we recommended that the State refund the $613,891.